WAIVER

SUPREME COURT OF THE UNITED STATES

No. 20-1470

Thomas Jeffrey Commonwealth of Pennsylvania
(Petitioner) Vv. (Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
@© Iam filing this waiver on behalf of all respondents.

oO J only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:

® lam a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

oO lam not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).

Signature: oo Kaun Cairns)
Date: 4/26/21 oo

  

(Type or print) Name Karen Edwards

© me. © Ms © Mrs. O Miss
Firm Allegheny County District Attomey's Office
Address 401 Allegheny County Courthouse
City & State Pittsburgh, PA : Zip 15219
Phone © (412) 350-1310 Email kedwards@da.allegheny.pa.us

A copy of this form nnust be sent to petitioner's counsel or Lo petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

ce: Matthew Ness, Esq.
